APPENDIX

The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2019 CO 19
Supreme Court Case No. 16SC75
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 12CA2540
Petitioner:
James Joseph Garner,
v.
Respondent:
The People of the State of Colorado.
Judgment Affirmed
en banc
March 18, 2019
Attorneys for Petitioner:
Megan A. Ring, Public Defender
Inga K. Nelson, Deputy Public Defender
Denver, Colorado
Attorneys for Respondent:
Philip J. Weiser, Attorney General
Jillian J. Price, Assistant Attorney General
Denver, Colorado
Attorneys for Amicus Curiae The American Psychological Association:
Wilmer Cutler Pickering Hale and Dorr LLP
Michael J.P. Hazel
Denver, Colorado

App. 1

Wilmer Cutler Pickering Hale and Dorr LLP
David W. Ogden
Daniel S. Volchok
Kevin M. Lamb
Washington, D.C.
Attorneys for Amicus Curiae The Innocence Project:
Johnson & Klein, PLLC
Eric K. Klein
Amy D. Trenary
Boulder, Colorado

JUSTICE MÁRQUEZ delivered the Opinion of the Court.
JUSTICE HART dissents, and JUSTICE HOOD and JUSTICE GABRIEL join in the
dissent.

2
App. 2

¶1

Eyewitness identifications are extremely powerful evidence. “[T]here is almost

nothing more convincing than a live human being who takes the stand, points a finger at
the defendant, and says ‘That’s the one!’” Watkins v. Sowders, 449 U.S. 341, 352 (1981)
(Brennan, J., dissenting) (quoting Elizabeth F. Loftus, Eyewitness Testimony 19 (1979)). But
such evidence is also fallible. Indeed, “the annals of criminal law are rife with instances
of mistaken identification.” United States v. Wade, 388 U.S. 218, 228 (1967). Precisely
because identification testimony is so persuasive, a mistaken identification can lead to a
wrongful conviction.
¶2

Criminal defendants therefore have access to certain safeguards at trial to test the

reliability of identification evidence, including the right to counsel and the opportunity
to cross-examine prosecution witnesses. The U.S. Supreme Court has also recognized “a
due process check on the admission of eyewitness identification, applicable when the
police have arranged suggestive circumstances leading the witness to identify a
particular person as the perpetrator of a crime.” Perry v. New Hampshire, 565 U.S. 228, 232
(2012). Specifically, in Neil v. Biggers, the Court held that where the State seeks either to
admit evidence of a resulting out-of-court identification or to elicit a live identification
from the witness at trial, due process requires the trial court to assess whether, under the
totality of the circumstances, the identification is nevertheless reliable. 409 U.S. 188,
198–99 (1972).
¶3

Here, the People charged James Garner for a bar shooting that injured three

brothers. The People’s case hinged on the brothers’ live identifications of Garner at trial
almost three years later, though none of them could identify Garner as the shooter in an
3
App. 3

earlier photographic array.

The core question before us is whether, in these

circumstances, Biggers required the trial court to assess the reliability of the brothers’
first-time in-court identifications before allowing them in front of the jury.
¶4

Garner argues that particularly given the brothers’ inability to identify him before

trial, their in-court identifications were the product of impermissibly suggestive
circumstances, and the trial court should have suppressed them under both Biggers and
the Colorado Rules of Evidence. The People respond that where an in-court identification
does not stem from a constitutionally defective out-of-court identification procedure, the
court need not screen the in-court identification for reliability. Instead, any questions of
reliability are for the jury to weigh.
¶5

We hold that where an in-court identification is not preceded by an impermissibly

suggestive pretrial identification procedure arranged by law enforcement, and where
nothing beyond the inherent suggestiveness of the ordinary courtroom setting made the
in-court identification itself constitutionally suspect, due process does not require the
trial court to assess the identification for reliability under Biggers. Because Garner alleges
no impropriety regarding the pretrial photographic arrays, and the record reveals
nothing unusually suggestive about the circumstances of the brothers’ in-court
identifications, we hold that the in-court identifications did not violate due process. We
further hold that Garner’s evidentiary arguments are unpreserved and that the trial
court’s admission of the identifications was not plain error under CRE 403, 602, or 701.
Accordingly, we affirm the judgment of the court of appeals.

4
App. 4

I. Facts and Procedural History
¶6

Near closing time at a Denver bar, two groups were celebrating birthdays.

Christian Adame-Diaz was celebrating with his friend and his two brothers, Roberto and
Arturo. The defendant, James Garner, was celebrating with his girlfriend and a few
others. A fight broke out between the two groups. Someone pulled out a gun and fired
six shots, injuring all three brothers. Following the shooting, Garner’s group fled. Police
recovered from the scene a pair of glasses splattered with Garner’s blood, and a cell phone
belonging to his girlfriend.
¶7

The People charged Garner with attempted murder of each brother; first-degree

assault of Christian and Arturo; possession of a weapon by a previous offender;1 and
crime of violence sentence enhancers. The defense maintained that although Garner was
at the bar on the night of the shooting, he was not the gunman.
¶8

During their investigation, police presented each brother with a photographic

array that included Garner. Although Christian was able to identify Garner as someone
present at the bar the night of the shooting, none of the brothers identified Garner as the
gunman.
¶9

Despite failing to identify Garner in the pretrial photo arrays, all three brothers

positively identified him almost three years later at trial as the shooter. Roberto testified
first. When asked whether he saw “anybody . . . in the courtroom . . . who shot at [him]

1

The People later dismissed this charge.
5
App. 5

on that particular evening,” Roberto pointed at Garner and identified the color of his
shirt. Roberto said the shooter’s face was something he would never forget. The
following morning, defense counsel moved to strike Roberto’s in-court identification of
Garner “as an impermissible one-on-one show[-]up identification, not comporting with
the factors that are required.” The trial court took the issue under advisement.
¶10

Arturo was the next brother to testify. When asked how long he had stayed at the

bar that night, Arturo spontaneously identified Garner, saying, “[U]ntil this individual
here fired at us. I don’t want to see this guy I remember with the gun.” Arturo said he
was “a hundred percent sure that it was him.” Defense counsel objected to “the unduly
suggestive nature of th[e] one-on-one identification,” but did not specify what made the
in-court identification suggestive. The trial court overruled the objection.
¶11

Christian likewise spontaneously identified Garner in the courtroom.

While

testifying about the events leading up to the shooting, Christian pointed at Garner and
said, “[H]im, James that’s here, pushed [Roberto] against the chairs. When he fell on top
of the chairs and tables, he took out his gun and started shooting my brother.” Christian
was positive that Garner was the gunman. Defense counsel again objected “as to a
one-on-one prejudicial show-up lineup,” and the trial court again overruled the objection.
¶12

Throughout trial, defense counsel questioned the reliability of the brothers’

identification testimony. In her opening statement, counsel asked the jury to note how
the brothers’ descriptions of the shooter initially conflicted but began to cohere over time:
[T]he . . . brothers . . . give different descriptions of what they think the man
looked like. . . . None of them describe a person with facial hair. Yet later
they meet with the district attorneys and the detective at the bar, and
6
App. 6

suddenly all of their descriptions kind of start to line up a little bit more
because now they are all describing a guy with facial hair.
¶13

Counsel highlighted these and many other discrepancies in the brothers’

descriptions of the shooter through cross-examination, eliciting differences in the type,
color, and detail of the shooter’s clothing, and whether he had facial hair or wore glasses.
¶14

Defense counsel also confronted each brother with his earlier failure to identify

Garner as the shooter in a photographic array. For example, Christian acknowledged on
cross-examination that when he saw Garner in the photo array, he told the detective, “He
was there but he was not the shooter.” And counsel engaged in the following exchange
with Roberto:
Q. Now, you spoke with [the detective] again . . . so that you could look at
the [photo] lineup and see if you could find the man you’ll never forget?
A. Yes.
Q. Which you did not?
A. No, I didn’t do it.
¶15

During closing argument, defense counsel again sought to undermine the

brothers’ in-court identifications. She retraced for the jury how “[e]veryone’s initial
description of the shooter [wa]s different,” and how the brothers’ descriptions changed
over time. Counsel also contrasted the brothers’ inability to identify Garner in the
photographic arrays with their certainty that he was the shooter when they saw him in
court: “They can’t identify James Garner at . . . all, but when he’s sitting in this chair, the
one with the arrow over it, that’s when they can say they’re sure.”
¶16

The jury convicted Garner of first-degree assault of Christian; second-degree
7
App. 7

assault of Arturo; and the lesser-included offenses of attempted reckless manslaughter of
Christian and Arturo. The jury acquitted Garner of all attempted murder charges and of
all the lesser-included charges against Roberto.
¶17

Garner appealed his convictions, arguing, as relevant here, that the admission of

the brothers’ in-court identifications violated his right to due process under the state and
federal constitutions, and the requirements of CRE 403, 602, and 701.
¶18

The court of appeals rejected these contentions. People v. Garner, 2015 COA 175,

__ P.3d __. The court reasoned that in Neil v. Biggers, the U.S. Supreme Court articulated
a test for “the exclusion of impermissible pretrial identifications and the in-court
identifications that follow them.” Garner, ¶ 11. The harm to be avoided, the division
explained, is the risk that “the in-court identification is the product of the illegal lineup
and not the observation of the defendant’s wrongful act.” Id. at ¶ 10. The court recited
the factors identified in Biggers that a trial court should consider when assessing the
reliability of an identification that follows an impermissibly suggestive confrontation
procedure: (1) the witness’s opportunity to view the accused at the time of the crime;
(2) the witness’s degree of attention; (3) the accuracy of the witness’s prior description;
(4) the witness’s level of certainty at the confrontation; and (5) the length of time between
the crime and the confrontation. Id. at ¶ 11 (citing Biggers, 409 U.S. at 199).
¶19

The court of appeals next observed that the majority of courts have declined to

extend Biggers to in-court identifications that do not follow unlawful pretrial
identifications. Id. at ¶ 12. The court also observed that Colorado has not applied “[t]he
exclusionary rule . . . to in-court identifications alleged to be suggestive simply because
8
App. 8

of the typical trial setting.” Id. at ¶ 13 (quoting People v. Monroe, 925 P.2d 767, 775 (Colo.
1996)).
¶20

Relying on these principles, the court noted that although Garner’s counsel

“objected to . . . the identifications on the basis that they were one-on-one show-ups,” she
offered no specific argument identifying the “constitutionally impermissible and
suggestive circumstances other than the fact that the[] identifications occurred in the
courtroom setting.” Id. at ¶ 19. The court reasoned that, although “relevant and certainly
grist for cross-examination,” the brothers’ inability to identify Garner as the shooter prior
to trial did not, as a matter of law, “preclude [them] from making an identification upon
seeing [Garner] in court.” Id. at ¶ 21. The court explained that the brothers’ previous
failure to identify Garner went to the weight of their in-court identification testimony,
rather than its admissibility. Id. at ¶¶ 21–22.
¶21

The court observed that “[e]ach identification was done in the presence of the

jury,” and that “defense counsel extensively cross-examined and impeached each of the
brothers with their prior inconsistent statements and inability to identify defendant as
the shooter from the photo lineup.” Id. at ¶ 23. Thus, the court concluded, Garner “was
given a full and fair opportunity to cross-examine each of the in-court identifications,”
and his right to due process was not violated. Id.
¶22

The court also summarily rejected Garner’s “bare evidentiary arguments,” noting

that defense counsel had not made specific objections at trial under CRE 403, 602, or 701.
Id. at ¶ 23 n.2. It concluded the trial court had not, in any event, abused its discretion
under those rules in admitting the in-court identifications. Id.
9
App. 9

¶23

We granted Garner’s petition for a writ of certiorari to decide whether the in-court

identifications were admitted in error.2

II. Analysis
¶24

Garner argues that the admission of the brothers’ first-time in-court identifications

violated his rights to due process and a fair trial. Importantly, he does not allege that the
pretrial identification procedures were improper. Instead, he contends that the brothers’
first-time in-court identifications were the product of impermissibly suggestive
circumstances, particularly given the brothers’ inability to identify Garner as the shooter
in the pretrial photographic arrays. Therefore, he argues, the trial court was required to
assess the reliability of these in-court identifications under the Biggers test before
admitting them.

Garner also contends the trial court should have excluded the

identifications under CRE 403, 602, and 701, though he failed to make specific objections
under those rules at trial.
¶25

The People respond that in-court identifications not preceded by improper pretrial

identification procedures do not implicate a defendant’s right to due process. The People
observe that in-court identification procedures historically have not been cause for
concern, and point out that in Perry v. New Hampshire, the U.S. Supreme Court held that
the Biggers reliability test is not required for identifications that were not procured under

2

We granted certiorari to review the following issue:
1. Whether the court of appeals erred in affirming the trial court’s
admission of the in-court identifications of the defendant.
10
App. 10

suggestive circumstances arranged by law enforcement. Although they acknowledge
that all in-court identifications entail some element of suggestion, they contend that any
inherent suggestiveness of the courtroom setting is not attributable to law enforcement.
The People thus argue the trial court was not required to prescreen the brothers’ in-court
identifications for reliability under the Biggers factors; rather, the reliability of their
identification testimony was for the jury to weigh. Alternatively, the People argue that
even under the Biggers factors, the identifications were sufficiently reliable to be admitted.
Finally, the People contend that the trial court did not plainly err by failing, sua sponte,
to exclude the challenged identifications under CRE 403, 602, and 701.
¶26

We begin our analysis by tracing the U.S. Supreme Court’s development of the test

articulated in Biggers. We then observe that in the wake of Biggers, courts have been
divided on whether the Biggers reliability analysis applies to an in-court identification not
preceded by an improper out-of-court identification procedure. We also note that in
Colorado, we have recognized that certain in-court identifications might raise due
process concerns, but we have declined to require prescreening of identifications alleged
to be suggestive based merely on the ordinary courtroom setting.
¶27

Next, we turn to a discussion of the U.S. Supreme Court’s decision in Perry. There,

the Court held that out-of-court identifications that are not a product of suggestive
circumstances arranged by law enforcement do not require judicial prescreening for
reliability under Biggers. Though the Supreme Court in Perry did not squarely address
whether Biggers applies to first-time in-court identifications, its reasoning has
significantly reshaped that debate: the clear majority of courts to consider the issue since
11
App. 11

Perry have concluded that Biggers does not require trial courts to screen first-time in-court
identifications for reliability. These courts have concluded that for defendants identified
for the first time in court, the ordinary safeguards of the trial process are sufficient to
satisfy due process, and the reliability of the identification testimony is for the jury to
weigh.
¶28

Relying on the Supreme Court’s reasoning in Perry, we hold that where an in-court

identification is not preceded by an impermissibly suggestive pretrial identification
procedure arranged by law enforcement, and where nothing beyond the inherent
suggestiveness of the ordinary courtroom setting made the in-court identification itself
constitutionally suspect, due process does not require the trial court to assess the
identification for reliability under Biggers. Because Garner does not allege that the
pretrial identification procedures were improper, and the record reveals nothing
unusually suggestive about the circumstances surrounding the brothers’ in-court
identifications, we hold that their admission did not violate due process. We further hold
that the trial court’s admission of the identifications was not plain error under CRE 403,
602, or 701. Accordingly, we affirm the judgment of the court of appeals.

A. Suggestive Out-of-Court Identifications and
Subsequent In-Court Identifications
¶29

Historically, the questionability of eyewitness identification testimony went to the

weight of such evidence and not its admissibility. But in a trilogy of cases decided in
1967, United States v. Wade, 388 U.S. 218 (1967), Gilbert v. California, 388 U.S. 263 (1967),
and Stovall v. Denno, 388 U.S. 293 (1967), the U.S. Supreme Court held that in certain
12
App. 12

circumstances, an out-of-court identification obtained by means of improper police
procedures, as well as any subsequent in-court identification tainted by the original
improper one, should be excluded from the jury’s consideration altogether.
¶30

In both Wade and Gilbert, witnesses identified the defendant at a post-indictment

lineup conducted in the absence of the defendant’s counsel. Wade, 388 U.S. at 219–20;
Gilbert, 388 U.S. at 269–70. In Wade, the Court considered whether the witnesses’
subsequent courtroom identifications of the defendant at trial should be excluded from
evidence. 388 U.S. at 219–20. In Gilbert, the prosecution sought to offer not only the
witnesses’ courtroom identifications, but also testimony relating their initial
identifications at the pretrial lineup. 388 U.S. at 271.
¶31

In both cases, the Court held that the Sixth Amendment right to counsel applies to

a post-indictment lineup because it is a critical stage requiring the presence of counsel to
preserve the defendant’s basic right to a fair trial. Wade, 388 U.S. at 236–37; accord Gilbert,
388 U.S. at 272. In so doing, the Court expressed concern about “the high incidence of
miscarriage of justice from mistaken identification” resulting from “the degree of
suggestion inherent in the manner in which the prosecution presents the suspect to
witnesses for pretrial identification.” Wade, 388 U.S. at 228. The Court thus envisioned
the presence of defense counsel as the antidote to potentially suggestive pretrial
identification procedures—both to avert prejudice at the lineup itself, and to preserve the
accused’s meaningful ability to attack the credibility of the witness’s resulting courtroom
identification at trial. See id. at 228–37.
¶32

The Court then turned to the proper remedy for the Sixth Amendment violations.
13
App. 13

As to the pretrial identification testimony the State sought to admit in Gilbert, the Court
reasoned that such evidence was the “direct result of the illegal lineup ‘come at by
exploitation of []the primary[] illegality,’” and only the sanction of automatic exclusion
could assure law enforcement authorities’ respect for the accused’s right to presence of
counsel. 388 U.S. at 272–73 (quoting Wong Sun v. United States, 371 U.S. 471, 488 (1963)).
¶33

But as to the in-court identifications in both Wade and Gilbert, the Court reasoned

that a per se exclusionary rule would be unjustified. Wade, 388 U.S. at 240; accord Gilbert,
388 U.S. at 272. Instead, the Court held that the prosecution should be given an
opportunity to establish by clear and convincing evidence that the witnesses’ in-court
identifications were based upon observations of the defendant other than during the
lineup. Wade, 388 U.S. at 240; Gilbert, 388 U.S. at 272. The relevant question, the Court
explained, was “[w]hether, granting establishment of the primary illegality, the evidence
to which instant objection is made has been come at by exploitation of that illegality or
instead by means sufficiently distinguishable to be purged of the primary taint.” Wade,
388 U.S. at 241 (quoting John MacArthur Maguire, Evidence of Guilt 221 (1959)). An incourt identification free from the taint of any improper pretrial procedure could thus
properly go to the jury.
¶34

Finally, in Stovall, the Court held that the exclusionary rule identified in Wade and

Gilbert did not apply retroactively. Stovall, 388 U.S. at 296–301. But in setting forth its
reasons for giving those cases only prospective application, the Court made clear that a
defendant could nevertheless seek to prove—independent of any Sixth Amendment
violation—that a police identification procedure was so “unnecessarily suggestive and
14
App. 14

conducive to irreparable mistaken identification” as to violate his Fourteenth
Amendment right to due process. Id. at 301–02. There, the victim-witness identified
Stovall in a pretrial show-up conducted in her hospital room, where Stovall stood
handcuffed to an officer and was the only black man present. Id. at 295. Ultimately, the
Court found no due process violation, concluding that the highly suggestive procedure
in that case was justified because no one knew how long the victim-witness might live.
Id. at 301–02. But importantly, Stovall recognized a distinct due process protection from
unnecessarily suggestive out-of-court identification procedures.
¶35

A year later, in Simmons v. United States, the Supreme Court again considered the

due process protection against suggestive pretrial identification procedures. 390 U.S. 377
(1968). In that case, the prosecution relied on in-court identifications that were allegedly
tainted by the witnesses’ previous exposure to a suggestive photographic array. Id. at
381–83. The Simmons Court acknowledged that the police’s improper use of photographs
can lead to a mistaken identification, and that a witness “thereafter is apt to retain in his
memory the image of the photograph rather than of the person actually seen, reducing
the trustworthiness of [any] subsequent . . . courtroom identification.” Id. at 383–84. But
the Court also noted that the danger of such a technique can be mitigated through
cross-examination at trial. Id. at 384. Thus, it declined to prohibit the already widespread
use of photographic arrays. Id. Instead, it held that a conviction based on in-court
identification at trial following a pretrial identification by photograph will be set aside
where the pretrial identification procedure was “so impermissibly suggestive as to give
rise to a very substantial likelihood of irreparable misidentification.” Id. The Court
15
App. 15

ultimately declined to overturn Simmons’ conviction, reasoning that the identification
procedure used in that case was justified, and that there was little chance that it led to a
misidentification. Id. at 384–85.
¶36

In Biggers, the Supreme Court synthesized its prior cases and established the

approach to be used to determine whether due process requires suppression of an
identification tainted by suggestive procedures. In that case, the prosecution’s evidence
included a victim-witness’s testimony regarding her visual and voice identification of the
defendant at a station-house show-up.

409 U.S. at 189, 195–96.

In discerning the

guidelines that had emerged from its prior cases, the Court emphasized that “the primary
evil to be avoided [from a suggestive confrontation] is ‘a very substantial likelihood of
irreparable misidentification.’” Id. at 198 (quoting Simmons, 390 U.S. at 384).

That

likelihood of misidentification is what violates a defendant’s right to due process, the
Court explained; it is what justifies the exclusion of an in-court identification made in the
wake of a suggestive out-of-court identification, as well as testimony about the
out-of-court identification itself. See id.
¶37

However, the Court rejected the idea that unnecessary suggestiveness alone

requires the exclusion of evidence. Id. Instead, the Court held that the proper question
is “whether under the ‘totality of the circumstances’ the identification was reliable even
though the confrontation procedure was suggestive.” Id. at 199. The Court then outlined
five factors to be considered in evaluating the likelihood of misidentification: (1) the
opportunity of the witness to view the criminal at the time of the crime; (2) the witness’s
degree of attention; (3) the accuracy of the witness’s prior description of the criminal;
16
App. 16

(4) the level of certainty the witness demonstrated at the confrontation; and (5) the length
of time between the crime and the confrontation. Id. at 199–200. Applying these factors,
the Court concluded there was no substantial likelihood of misidentification, and the
evidence was properly allowed to go to the jury. Id. at 201.
¶38

A few years later, in Manson v. Brathwaite, the Court clarified that the Biggers

analysis applied to out-of-court confrontations conducted both pre- and post-Stovall.
432 U.S. 98, 114 (1977). The Court again rejected a per se rule of exclusion whenever law
enforcement officers use improper identification procedures, reemphasizing that
“reliability is the linchpin in determining the admissibility of identification testimony”
and explaining that the five factors outlined in Biggers are to be weighed against the
“corrupting effect of the suggestive identification itself.” Id. at 111–14. Ultimately, the
Court could not conclude that there was a substantial likelihood of misidentification in
that case, and “[s]hort of that point, such evidence [was] for the jury to weigh.” Id. at 116.
The Court observed that it was “content to rely upon the good sense and judgment of
American juries,” noting that evidence containing “some element of untrustworthiness
is customary grist for the jury mill,” and that juries can “measure intelligently the weight
of identification testimony that has some questionable feature.” Id.

B. First-Time In-Court Identifications
¶39

Biggers and Brathwaite did not answer the question before us today: whether a

first-time in-court identification not preceded by an impermissibly suggestive pretrial
identification procedure arranged by law enforcement should be subject to judicial
screening under Biggers. In the wake of those cases, courts were split on the issue. Many
17
App. 17

began to evaluate the reliability of such first-time in-court identifications under Biggers,3
while still many others declined to do so.4
¶40

Courts that applied Biggers to such first-time in-court identifications tended to

reason that Biggers was concerned primarily with preventing convictions based on
mistaken identification, a rationale that supported applying its analysis to all eyewitness
identifications, whether obtained before or during trial. See, e.g., United States v. Hill,
967 F.2d 226, 232 (6th Cir. 1992) (“All of the concerns that underlie the Biggers analysis,
including the degree of suggestiveness, the chance of mistake, and the threat to due
process are no less applicable when the identification takes place for the first time at
trial.”).
¶41

Meanwhile, those courts that declined to apply Biggers reasoned primarily that

unlike suggestive out-of-court identifications or in-court identifications tainted by earlier
suggestive procedures, first-time in-court identifications take place before the jury and

See, e.g., United States v. Douglas, 489 F.3d 1117, 1126 (11th Cir. 2007); United States v.
Murray, 65 F.3d 1161, 1168–69 (4th Cir. 1995); United States v. Hill, 967 F.2d 226, 232 (6th
Cir. 1992); United States v. Rundell, 858 F.2d 425, 426–27 (8th Cir. 1988) (per curiam); United
States v. Aigbevbolle, 772 F.2d 652, 654 (10th Cir. 1985); Code v. Montgomery, 725 F.2d 1316,
1319–20 (11th Cir. 1984) (per curiam); Isom v. State, 928 So. 2d 840, 846–49 (Miss. 2006); In
re R.W.S., 728 N.W.2d 326, 335–36 (N.D. 2007); Commonwealth v. Silver, 452 A.2d 1328,
1331–32 (Pa. 1982); State v. Drawn, 791 P.2d 890, 892–93 (Utah Ct. App. 1990); Hogan v.
State, 908 P.2d 925, 928–29 (Wyo. 1995).
3

See, e.g., United States v. Domina, 784 F.2d 1361, 1367–69 (9th Cir. 1986); Byrd v. State,
25 A.3d 761, 767 (Del. 2011); In re W.K., 323 A.2d 442, 444 (D.C. 1974); White v. State,
403 So. 2d 331, 335 (Fla. 1981); Ralston v. State, 309 S.E.2d 135, 136–37 (Ga. 1983); State v.
King, 934 A.2d 556, 561 (N.H. 2007); State v. Clausell, 580 A.2d 221, 235–36 (N.J. 1990); State
v. Green, 250 S.E.2d 197, 200 (N.C. 1978); State v. Lewis, 609 S.E.2d 515, 518 (S.C. 2005).
4

18
App. 18

are subject to all the ordinary protections of a criminal trial:
The concern with in-court identification, where there has been suggestive
pretrial identification, is that the witness later identifies the person in court,
not from his or her recollection of observations at the time of the crime
charged, but from the suggestive pretrial identification. Because the jurors
are not present to observe the pretrial identification, they are not able to
observe the witness making that initial identification. The certainty or
hesitation of the witness when making the identification, the witness’s
facial expressions, voice inflection, body language, and the other normal
observations one makes in everyday life when judging the reliability of a
person’s statements, are not available to the jury during this pretrial
proceeding. There is a danger that the identification in court may only be
a confirmation of the earlier identification, with much greater certainty
expressed in court than initially.
When the initial identification is in court . . . [t]he jury can observe the
witness during the identification process and is able to evaluate the
reliability of the initial identification.
United States v. Domina, 784 F.2d 1361, 1368 (9th Cir. 1986) (internal citations omitted);
accord Ralston v. State, 309 S.E.2d 135, 136–37 (Ga. 1983); State v. Lewis, 609 S.E.2d 515, 518
(S.C. 2005).
¶42

Notably, even among the courts that deemed Biggers applicable to first-time

in-court identifications, many ultimately concluded that the typical courtroom
identification procedure posed no constitutional problem. See, e.g., Hogan v. State, 908
P.2d 925, 929 (Wyo. 1995) (“[W]ithout more, the mere exposure of the accused to a witness
in the suggestive setting of a criminal trial does not amount to the sort of impermissible
confrontation

with

which

the

due

process

clause

is

concerned.”

(quoting

Middletown v. United States, 401 A.2d 109, 132 (D.C. 1979))).
¶43

Colorado was in this camp. We recognized in People v. Walker “that under some

circumstances an in-court identification may constitute an impermissible one-on-one
19
App. 19

confrontation which is unnecessarily suggestive and conducive to irreparable mistaken
identification.” 666 P.2d 113, 119 (Colo. 1983) (likening a witness’s first-time
confrontation with a defendant in court to a one-on-one show-up). Although the details
of the in-court identification procedure in Walker are somewhat ambiguous, the
prosecutor apparently “told [the witness], and she assumed, that the defendant on trial
was the shotgun-wielding robber.” Id. at 120.
¶44

We later clarified, however, that exclusion is not required for “in-court

identifications alleged to be suggestive simply because of the typical trial setting.” People
v. Monroe, 925 P.2d 767, 775 (Colo. 1996).5 Distinguishing Walker, we noted several factors
that made the identification procedure in Monroe comparatively less suspect, including
that “[t]he prosecution made no improper remarks to the witness.” Monroe, 925 P.2d at
774.

We also emphasized the role of counsel in forestalling or exposing any

suggestiveness in the identification and observed that special procedures may be
appropriate in certain circumstances. Id. (acknowledging the trial court’s discretion to
order in-person lineups or Crim. P. 41.1 nontestimonial identifications).

We observe that in several of our cases in this area, we seem to have conflated the Sixth
Amendment and due process tests for admissibility, permitting a witness to make an
in-court identification if based on an “independent source” distinct from any prior,
unnecessarily suggestive identification procedure. See, e.g., Monroe, 925 P.2d at 773–75;
Walker, 666 P.2d at 119; Gimmy v. People, 645 P.2d 262, 270 (Colo. 1982); People v. Mattas,
645 P.2d 254, 261 (Colo. 1982); People v. Thatcher, 638 P.2d 760, 770 (Colo. 1981); People v.
Smith, 620 P.2d 232, 238 n.11 (Colo. 1980); People v. Bowen, 490 P.2d 295, 298 (Colo. 1971);
Martinez v. People, 482 P.2d 375, 377 (Colo. 1971).
5

20
App. 20

C. Perry and Its Wake
1. Perry v. New Hampshire
¶45

More recently, in Perry v. New Hampshire, the Supreme Court considered whether

Biggers requires a trial court to assess the reliability of an out-of-court identification
obtained under suggestive circumstances not arranged by law enforcement. 565 U.S. 228
(2012). Although Perry did not directly answer whether Biggers applies to a first-time
in-court identification, the Court’s reasoning significantly reshaped the terms of that
debate. We therefore discuss Perry and its rationale in some detail.
¶46

In Perry, police received a call that someone was trying to break into cars in the

parking lot of an apartment building.

565 U.S. at 233.

The responding officer

encountered Perry in the lot, holding two car-stereo amplifiers. Id. A second officer
remained with Perry while the first went upstairs to talk to a building resident who
witnessed the break-in. Id. at 234. When the officer asked the resident for a description
of the perpetrator, she spontaneously pointed to her window and said the person she had
seen breaking into a car was standing in the parking lot next to the other officer. Id. The
resident was later unable to identify Perry in a photographic array. Id. Perry moved to
suppress evidence of the resident’s out-of-court identification on due process grounds,
arguing that it amounted to an impermissible one-person show-up. Id. at 234–35. The
court denied the motion, reasoning that because the out-of-court identification did not
result from an unnecessarily suggestive procedure manufactured by the police, the
reliability of the testimony was for the jury to determine. Id. at 235.
¶47

After the jury convicted him of theft, Perry appealed, arguing that the suggestive
21
App. 21

circumstances surrounding the identification were enough to trigger the trial court’s duty
to evaluate the identification for reliability under Biggers before allowing the jury to
consider it. Id. at 236. Perry’s argument hinged largely on the Court’s statement in
Brathwaite that “reliability is the linchpin in determining the admissibility of
identification testimony.” Id. at 240 (quoting Brathwaite, 432 U.S. at 114). If “reliability is
the linchpin” of admissibility under the Due Process Clause, Perry argued, then the
Biggers reliability analysis should be triggered regardless of whether police were
responsible for creating the suggestive circumstances that marred the identification.
Id. at 240–41.
¶48

The Supreme Court rejected Perry’s reading of its precedent, observing that he had

“removed [the Court’s] statement in Brathwaite from its mooring.” Id. at 241. Read in
context, the Court explained, its reference to reliability appeared in the Court’s discussion
of the appropriate remedy “when the police use an unnecessarily suggestive identification
procedure.” Id. That remedy—the judicial screen for reliability—was adopted in lieu of an
automatic exclusionary rule and, importantly, “comes into play only after the defendant
establishes improper police conduct.” Id. Far from suggesting that the risk of mistaken
identification alone was enough to require judicial prescreening of identification
evidence, the Court had made clear that the “purpose of the check . . . was to avoid
depriving the jury of identification evidence that is reliable, notwithstanding improper
police conduct.” Id. (citing Brathwaite, 432 U.S. at 112–13).
¶49

In other words, the Court explained, the Biggers reliability analysis is triggered

“only when law enforcement officers use an identification procedure that is both
22
App. 22

suggestive and unnecessary.” Id. at 238–39. Revisiting the 1967 trilogy of cases and
Stovall’s progeny, the Court observed that each case had involved improper procedures
arranged by police. See id. at 237–38, 240–43. It discerned from those cases that “[a]
primary aim of excluding identification evidence obtained under unnecessarily
suggestive circumstances . . . is to deter law enforcement use of improper lineups,
show[-]ups, and photo arrays in the first place.” Id. at 241. The Court concluded that
“[t]his deterrence rationale is inapposite in cases, like Perry’s, in which the police engaged
in no improper conduct.” Id. at 242.
¶50

Importantly, the Court also expressed concern that to require trial courts to

prescreen eyewitness evidence for reliability under Biggers “any time an identification is
made under suggestive circumstances,” id. at 240, would “open the door to judicial
preview, under the banner of due process, of most, if not all, eyewitness identifications,”
id. at 243. This is because “most eyewitness identifications involve some element of
suggestion. Indeed, all in-court identifications do.” Id. at 244. (emphasis added).
¶51

The Court recognized the fallibility of eyewitness identifications, but underscored

that “[t]he Constitution . . . protects a defendant against a conviction based on evidence
of questionable reliability, not by prohibiting introduction of the evidence, but by
affording the defendant means to persuade the jury that the evidence should be
discounted as unworthy of credit.” Id. at 237. Among the safeguards built into the
adversarial system are the requirement that guilt be proven beyond a reasonable doubt,
the right to counsel, and the right to confront and cross-examine the prosecution’s
witnesses. Id. at 246. Other safeguards, such as the rules of evidence, cautionary jury
23
App. 23

instructions, and the ability to call expert witnesses to testify about the shortcomings of
eyewitness testimony, provide additional protection against convictions based on
questionable identification evidence. Id. at 247. Given the safeguards available in the
ordinary criminal trial, the Court concluded that the Due Process Clause does not require
a preliminary judicial inquiry into the reliability of eyewitness identification when the
identification was not procured under unnecessarily suggestive circumstances arranged
by law enforcement. Id. at 248.

2. After Perry
¶52

The Perry decision shifted the debate over whether Biggers requires judicial

prescreening of first-time in-court identifications not preceded by suggestive out-of-court
identification procedures. The clear majority of courts to consider the issue since Perry
have concluded that, with respect to first-time in-court identifications, “the requirements
of due process are satisfied in the ordinary protections of trial.” United States v. Whatley,
719 F.3d 1206, 1216 (11th Cir. 2013).6
¶53

Tracking the reasoning in Perry, these courts have concluded that Biggers does not

See also, e.g., United States v. Thomas, 849 F.3d 906, 910–11 (10th Cir. 2017); United States
v. Hughes, 562 F. App’x 393, 398 (6th Cir. 2014); Young v. State, 374 P.3d 395, 411–12 (Alaska
2016) (but announcing new, more protective due process test under state law for future
cases); Fairley v. Commonwealth, 527 S.W.3d 792, 798–800 (Ky. 2017); Galloway v. State, 122
So. 3d 614, 664 (Miss. 2013); State v. Ramirez, 409 P.3d 902, 911–13 (N.M. 2017); State v.
Hickman, 330 P.3d 551, 571–72 (Or. 2014); cf. Benjamin v. Gipson, 640 F. App’x 656, 659 (9th
Cir. 2016) (rejecting ineffective assistance of counsel claim for failure to move to suppress
first-time in-court identification because, given Perry, motion likely to have been
unsuccessful).
6

24
App. 24

apply to the type of first-time in-court identifications at issue here for three main reasons.
First, because an ordinary in-court identification procedure involves no improper law
enforcement action, exclusion of an identification made under such circumstances would
serve no deterrent purpose and would thus be inappropriate under Perry. See State v.
Ramirez, 409 P.3d 902, 912 (N.M. 2017) (concluding defendant’s objections based on the
suggestiveness of the courtroom setting “do nothing to establish that the alleged taint . . .
if there was any, arose as a consequence of improper law enforcement influence”); see also
Whatley, 719 F.3d at 1216.
¶54

Second, these courts reason that the Perry Court squarely rejected the notion that

due process demands judicial prescreening of eyewitness identifications whenever they
might be unreliable or the product of suggestion. See, e.g., Fairley v. Commonwealth,
527 S.W.3d 792, 799 (Ky. 2017) (“Pointedly, the Court observed that many eyewitness
identifications are problematic for any number of reasons including . . . a witness’s poor
vision, the stress of the encounter, personal grudges and cross-racial perceptions . . . .”).
In so doing, the Court implicitly rejected the notion that due process requires judicial
prescreening of all in-court identifications. See id.; United States v. Thomas, 849 F.3d 906,
910–11 (10th Cir. 2017); Whatley, 719 F.3d at 1215–16.
¶55

Finally, like Perry, these courts place their trust in the ordinary safeguards of trial

that are at their height when an identification procedure takes place in open court.
See Young v. State, 374 P.3d 395, 411–12 (Alaska 2016) (“An in-court identification . . .
occurs in the presence of the judge, the jury, and the lawyers. The circumstances under
which the identification is made are apparent. Defense counsel has the opportunity to
25
App. 25

identify firsthand the factors that make the identification suggestive and to highlight
them for the jury.”); see also Fairley, 527 S.W.3d at 799–800; Whatley, 719 F.3d at 1217;
Ramirez, 409 P.3d at 913.
¶56

Notably, several courts that had previously applied Biggers to first-time in-court

identifications shifted course after Perry, concluding that the Supreme Court’s reasoning
undercut their earlier decisions. The Eleventh Circuit observed:
When the Supreme Court made clear in Perry that Simmons, Biggers, and
indeed “every case in the Stovall line” relied upon the involvement of law
enforcement officials in the creation of the suggestive circumstances of the
identification and that the Due Process Clause “does not require a
preliminary judicial inquiry into the reliability of an eyewitness
identification when the identification was not procured under
unnecessarily suggestive circumstances arranged by law enforcement,” the
Court removed the foundation upon which [the Eleventh Circuit’s prior
cases] rested. And when the Supreme Court rejected the argument that the
Due Process Clause requires judicial prescreening of all identifications
obtained under suggestive circumstances and expressly disapproved the
idea that in-court identifications would be subject to prescreening, it made
clear that our precedents are no longer good law.
Whatley, 719 F.3d at 1216 (quoting Perry, 565 U.S. at 248). The Sixth Circuit, which had
earlier held that “[a]ll of the concerns that underlie the Biggers analysis . . . are no less
applicable when the identification takes place for the first time at trial,” Hill, 967 F.2d at
232, reversed course after Perry, observing that the Supreme Court had clarified that the
“due process rights of defendants identified in the courtroom under suggestive
circumstances are generally met through the ordinary protections in trial,” United States
v. Hughes, 562 F. App’x 393, 398 (6th Cir. 2014); see also Thomas, 849 F.3d at 911 (holding
that prior Tenth Circuit precedent requiring judicial reliability assessment for first-time
in-court identifications “is no longer viable” after Perry). And although the Eighth Circuit
26
App. 26

had previously applied Biggers to first-time in-court identifications, see Rundell, 858 F.2d
at 426–27, that court likewise concluded that Perry changed the legal landscape enough
that it was not plain error for a trial court to fail to conduct a reliability analysis of a firsttime in-court identification, see United States v. Shumpert, 889 F.3d 488, 491 (8th Cir. 2018).
¶57

A small minority of courts have applied Biggers to first-time in-court

identifications since Perry was decided.7 Notably, some of those cases do not address
Perry or its rationale in their analysis at all. See, e.g., United States v. Greene, 704 F.3d 298,
305–06 (4th Cir. 2013); City of Billings v. Nolan, 383 P.3d 219, 224–25 (Mont. 2016).
¶58

Others of those courts have held that first-time in-court identifications will be

excluded only where there is evidence of improper state action in eliciting the
identification. For example, the U.S. District Court for the District of Columbia reasoned
that an in-court identification procedure could be classified as state action under Perry,
but that scrutiny under Biggers should be limited to those identifications where “the
government d[oes] not have a basis for believing that the witness could make a reliable
identification,” and the identification is “merely an attempt to circumvent the due process
constraints on one-man show[-]ups.” United States v. Morgan, 248 F. Supp. 3d 208, 213 &
n.2 (D.D.C. 2017). The Seventh Circuit similarly declined to consider all first-time in-court

See, e.g., Lee v. Foster, 750 F.3d 687, 691–92 (7th Cir. 2014); United States v. Greene, 704 F.3d
298, 305–06 (4th Cir. 2013); United States v. Morgan, 248 F. Supp. 3d 208, 211–15 (D.D.C.
2017); State v. Dickson, 141 A.3d 810, 822–27 (Conn. 2016); City of Billings v. Nolan, 383 P.3d
219, 224–25 (Mont. 2016).
7

27
App. 27

identification procedures impermissibly suggestive, but specifically held that a witness’s
failure to identify a defendant in a pretrial photographic array is not enough to trigger a
Biggers analysis. See Lee v. Foster, 750 F.3d 687, 691–92 (7th Cir. 2014).
¶59

In a 4-3 decision, the Connecticut Supreme Court agreed that Perry did not

foreclose application of Biggers to first-time in-court identifications because a prosecutor’s
conduct could involve improper state action that should be deterred. State v. Dickson,
141 A.3d 810, 827–28 (Conn. 2016). But the court went a step further, holding that in cases
where identity is at issue, first-time in-court identifications are so suggestive that they
necessarily “implicate due process protections and must be prescreened by the trial
court.” Id. at 822–25. The court dismissed the Supreme Court’s reference in Perry to the
dubiousness of subjecting all in-court identifications to a reliability analysis as a “passing,
general reference” that could not foreclose the “conclusion that [such identifications] can
implicate due process concerns under certain circumstances.” Id. at 828. The court then
delineated new procedures for prescreening first-time in-court identifications. Id. at 835.
But see id. at 849–50 (Zarella, J., concurring) (doubting state court’s authority to adopt
prophylactic rules under the United States Constitution).
¶60

Massachusetts’ Supreme Judicial Court has also created a rule limiting in-court

identifications where the eyewitness either was not asked to make an out-of-court
identification, Commonwealth v. Crayton, 21 N.E.3d 157, 164–73 (Mass. 2014), or made an
equivocal prior identification, Commonwealth v. Collins, 21 N.E.3d 528, 534 (Mass. 2014).
These decisions, however, turn on state “[c]ommon law principles of fairness,” and
explicitly acknowledge the court’s departure from U.S. Supreme Court jurisprudence.
28
App. 28

Crayton, 21 N.E.3d at 165 (contrasting Massachusetts’ test with the standard articulated
in Perry).
¶61

Finally, the First Circuit has declined to take a side in the debate, concluding that

the defendant’s arguments for exclusion in that case failed either way. United States v.
Correa-Osorio, 784 F.3d 11, 19–22 (1st Cir. 2015). If Biggers did not apply, the in-court
identification was permissible because the defendant “received all the safeguards Perry
stamped sufficient to protect . . . due process rights.” Id. at 20. And even under Biggers,
the First Circuit reasoned, the defendant “never gets to first base,” because the only
suggestion he alleged in his identification was “that he had a huge ‘pick me’ sign on him
because . . . he was the only male defendant at counsel table.” Id. at 21–22. Correa-Osorio
suggests that the gap between these two approaches to in-court identifications may not
be so wide: absent evidence of unusual suggestion, most courts ultimately allow in-court
identifications to go to the jury.

D. The Brothers’ In-Court Identifications
¶62

Relying on the reasoning in Perry, we hold that where an in-court identification is

not preceded by an impermissibly suggestive pretrial identification procedure arranged
by law enforcement, and where nothing beyond the inherent suggestiveness of the
ordinary courtroom setting made the in-court identification itself constitutionally
suspect, due process does not require the trial court to assess the identification for
reliability under Biggers.
¶63

We acknowledge the suggestiveness that inheres in identifying a defendant for the

first time in court. But Perry rejected the argument that the Due Process Clause requires
29
App. 29

judicial prescreening for reliability “any time an identification is made under suggestive
circumstances.” 565 U.S. at 240. And we cannot ignore that the Supreme Court implicitly
dismissed the notion that the suggestiveness inherent in “all in-court identifications”
itself justifies a Biggers analysis. See id. at 244. We further agree with the Court’s
implication that such a broad rule would be unworkable. See id.
¶64

Although the prosecution functions as a state actor in connection with law

enforcement, see Dickson, 141 A.3d at 824, Perry made clear that Biggers prescreening is
not required in the absence of improper state action. See 565 U.S. at 241–42, 245. Indeed,
“[t]he very purpose of the check . . . [is] to avoid depriving the jury of identification
evidence that is reliable, notwithstanding improper [law enforcement] conduct.” Id. at 241.
The inherent suggestiveness of an ordinary courtroom setting does not, without more,
give rise to improper state action. The prosecution does not force the accused to sit at his
counsel’s table; instead, a defendant typically chooses to sit there (instead of in the
audience) to assist in his defense. See Correa-Osorio, 784 F.3d at 20; Whatley, 719 F.3d at
1217. Because excluding a first-time identification made in an ordinary courtroom setting
would not serve to deter improper law enforcement action, it would be inappropriate
under Perry. See 565 U.S. at 241–42.
¶65

Nor are we inclined to require prescreening of in-court identifications in the

narrower set of cases where, as here, the witness failed to identify the defendant in a
pretrial procedure.

Far from deterring improper state action, such a rule could

disincentivize the use of properly conducted lineups and encourage the prosecution to
try their luck in the (typically) suggestive trial setting. Moreover, there are legitimate
30
App. 30

reasons why a witness might be better able to identify a defendant at trial—live, and in
person, with view of his expression and manner—than in the sort of photographic array
used in this case.
¶66

Finally, Perry made clear that ordinary trial safeguards are the appropriate checks

on identifications made under suggestive circumstances not attributable to improper law
enforcement conduct. See id. at 246–48. Indeed, when a first-time identification takes
place in court, counsel can expose—as defense counsel ably did in this case—any
suggestiveness at work in the courtroom, cf. Wade, 388 U.S. at 230–31, while juries can
make contemporaneous assessments of credibility. And where a witness makes a firsttime in-court identification, the witness’s previous failure to identify the defendant
presents ideal fodder for impeachment on cross-examination. In short, we cannot,
consistent with Perry, conclude that in-court identifications alleged to be suggestive
simply because of the ordinary trial setting must be screened rather than subjected to
cross-examination and argument before the jury.
¶67

Though we decline to require judicial prescreening of all in-court identifications

under Biggers, we recognize, as we did in Walker, that some courtroom identifications not
stemming from improper out-of-court identification procedures might still raise
constitutional concern. Here, however, because Garner alleges no impropriety in the
pretrial photographic arrays nor anything unusually suggestive about the circumstances
surrounding the brothers’ subsequent in-court identifications, we hold that federal due

31
App. 31

process8 did not require their exclusion at trial.9

E. Evidentiary Challenges
¶68

That due process does not require a reliability hearing under Biggers does not strip

judges of their role as gatekeepers under the rules of evidence. See Perry, 565 U.S. at
245–47 (declining to “enlarge the domain of due process” in part because of existing
safeguards against questionable identifications, including state and federal rules of
evidence). Here, however, because Garner failed to object to the brothers’ in-court
identifications under any particular rule of evidence, we agree with the court of appeals
that his evidentiary arguments are unpreserved. We cannot hold that it was plain error
for the trial court not to exclude the identifications under CRE 403, 602, or 701 sua sponte.

III. Conclusion
¶69

We hold that where an in-court identification is not preceded by an impermissibly

suggestive pretrial identification procedure arranged by law enforcement, and where
nothing beyond the inherent suggestiveness of the ordinary courtroom setting made the
in-court identification itself constitutionally suspect, due process does not require the
trial court to assess the identification for reliability under Biggers. Because Garner alleges

We do not separately analyze our state constitutional due process guarantee because
Garner has not argued that it should be interpreted any more broadly than its federal
counterpart.
8

Because application of Biggers’ reliability test was not required for the in-court
identifications at issue, we have no occasion to consider the additional factors Garner
urges us to fold into that analysis.
9

32
App. 32

no impropriety regarding the pretrial photographic arrays, and the record reveals
nothing unusually suggestive about the circumstances of the brothers’ in-court
identifications, we hold that the in-court identifications did not violate due process. We
further hold that Garner’s evidentiary arguments are unpreserved and that the trial
court’s admission of the identifications was not plain error under CRE 403, 602, or 701.
Accordingly, we affirm the judgment of the court of appeals.

JUSTICE HART dissents, and JUSTICE HOOD and JUSTICE GABRIEL join in the
dissent.

33
App. 33

JUSTICE HART, dissenting.
¶70

In Neil v. Biggers, the Supreme Court explained that when a procedure used to

elicit eyewitness identification of a criminal defendant is “so unnecessarily suggestive
and condu[cive] to irreparable mistaken identification that [the defendant] was denied
due process of law” that procedure must be screened to ensure the reliability of the
identification. 409 U.S. 188, 196 (1972) (quoting Stovall v. Denno, 388 U.S. 293, 302 (1967)).
In Perry v. New Hampshire, the Court made clear that the requirement for this due process
check “turn[s] on the presence of state action . . . .” 565 U.S. 228, 233 (2012).
¶71

This case involves one of the most suggestive of all possible identification

procedures—in-court identification. The in-court identifications made in this case were
arranged by a prosecutor—a member of law enforcement. And they were conducive to
irreparable misidentification because all three witnesses had failed to identify the
defendant when presented with the opportunity to do so before trial. Mr. Garner was
entitled to have the proposed eyewitness identifications screened by the judge to evaluate
their likely reliability before or, if necessary, even during trial.1

I appreciate that the trial judge may not always know if the prosecution intends a
first-time, one-on-one identification of the defendant at trial. In the ordinary course,
defense counsel should request a pre-trial hearing when there seems to be the potential
for such an identification procedure. If defense counsel is uncertain of the prosecution’s
intentions in this regard, she may request an order for discretionary disclosure to the
defense by the prosecution under Crim. P. 16 (I)(d)(1). The trial court may also institute
a standard procedure requiring the prosecution to disclose to the court and defense
counsel if she intends to attempt such an identification at trial. See C.R.E. 104(a)
1

1
App. 34

¶72

The majority concludes that Perry settled the question of whether in-court

identifications should be screened for reliability. In fact, Perry did not even consider that
question. And while many courts since Perry have reached the conclusion that the
majority reaches today, those courts have failed to adequately consider what a growing
body of science and experience have taught us about eyewitness identifications. As a
result, they have failed to take seriously the due process concerns raised by first-time
in-court identifications.

A.
¶73

First-time in-court identifications are inherently suggestive. A witness appears in

the courtroom, never having successfully identified the defendant before that moment,
and is asked whether the defendant—the one person who the police and prosecutor

(“Preliminary questions concerning the qualification of a person to be a witness . . . or the
admissibility of evidence shall be determined by the court . . . .”); C.R.E. 403 (“Although
relevant, evidence may be excluded if its probative value is substantially outweighed by
the danger of unfair prejudice, confusion of the issues, or misleading the jury . . . .”);
C.R.E. 602 (“A witness may not testify to a matter unless evidence is introduced sufficient
to support a finding that he has personal knowledge of the matter.”); C.R.E. 611(a) (“The
court shall exercise reasonable control over the mode and order of interrogating
witnesses and presenting evidence so as to (1) make the interrogation and presentation
effective for the ascertainment of the truth . . . .”). Indeed, there is nothing about the
court’s holding today that prevents trial courts from imposing such restrictions on the
admission of evidence, irrespective of the majority’s conclusion today regarding what
due process requires. Just because a court need not hold a pretrial hearing as a matter of
constitutional law does not mean that a court should not hold such a hearing under the
rules of evidence. Cf. C.R.E. 102 (The rules of evidence “shall be construed to secure
fairness in administration . . . and promotion of growth and development of the law of
evidence to the end that the truth may be ascertained and proceedings justly
determined.”)
2
App. 35

believe they have enough evidence to try for the crime in question—is in fact the right
one. “It is hard to imagine a situation more clearly conveying the suggestion to the
witness that the one presented is believed guilty . . . .” United States v. Wade, 388 U.S. 218,
234 (1967) (discussing show-up identification procedures). “The prosecutor, the witness,
and everyone else in the courtroom are aware that the suspect is the individual seated at
the defense table,” and “[t]here is no way to safeguard the witness from influence caused
by subtle cues in the prosecutor’s questioning or not-so-subtle cues in the courtroom
itself.” Aliza B. Kaplan & Janis C. Puracal, Who Could it Be Now? Challenging the Reliability
of First-Time In-Court Identifications After State v. Henderson and State v. Lawson, 105 J.
Crim. L. & Criminology 947, 985 (2015).

Witnesses faced with such a suggestive

circumstance “may identify the defendant out of reliance on the prosecutor and in
conformity with what is expected of them rather than because their memory is reliable.”
Commonwealth v. Crayton, 21 N.E.3d 157, 166–67 (Mass. 2014).
¶74

In-court identifications, like other eyewitness identifications, are also remarkably

fallible.

Amicus curiae, the Innocence Project, has found that eyewitness

misidentification is the leading cause of DNA-confirmed wrongful convictions, with
more than 70 percent of DNA exonerations involving eyewitness misidentification. Brief
of Amicus Curiae The Innocence Project, at 3. “Of those [exonerees], more than half
(53 percent) were misidentified in court.” Shirley LaVarco & Karen Newirth, Connecticut
Supreme Court Limits In-Court Identification in Light of the Danger of Misidentification, The
Innocence Project (Aug. 29, 2016), https://perma.cc/4TSS-6D5G. Significantly, scientific
research has demonstrated that eyewitness identifications are less reliable with the
3
App. 36

passage of time.

Nat’l Acad. of Sci., Identifying the Culprit: Assessing Eyewitness

Identification 110 (2014) (hereinafter NAS Report).
¶75

Despite their lack of reliability, in-court identifications are also especially

persuasive to a jury. As the majority acknowledges, “there is almost nothing more
convincing than a live human being who takes the stand, points a finger at the defendant,
and says ‘That’s the one!’” Watkins v. Sowders, 449 U.S. 341, 352 (1982) (Brennan, J.,
dissenting); see also United States v. Correa-Osorio, 784 F.3d 11, 29 (1st Cir. 2015) (Barron, J.,
concurring in part and dissenting in part) (“Eyewitness testimony is undeniably
powerful. That testimony is all the more powerful when the eyewitness identifies the
defendant right in front of the jury.”); United States v. Hill, 967 F.2d 226, 231 (6th Cir. 1992)
(“[O]f all the evidence that may be presented to the jury, a witness’ in-court statement
that ‘he is the one’ is probably the most dramatic and persuasive.” (quoting United States
v. Russell, 532 F.2d 1063, 1067 (6th Cir. 1976)); State v. Henderson, 27 A.3d 872, 889 (N.J.
2011) (“[T]here is almost nothing more convincing [to a jury] than” eyewitness
identification of the defendant. (quoting Watkins, 449 U.S. at 352 (Brennan, J.,
dissenting))).
¶76

Unfortunately, in-court identification is also not susceptible to effective challenge

through cross-examination because “cross-examination is far better at exposing lies than
at countering sincere but mistaken beliefs.” State v. Dickson, 141 A.3d 810, 832 (Conn.
2016) (quoting State v. Guilbert, 49 A.3d 705, 725 (Conn. 2012)); see also NAS Report, supra,
at 110. A witness who mistakenly believes that he is accurately identifying the defendant
will come across in cross-examination as quite sincere and confident.

And while

4
App. 37

confidence “is not a reliable predictor of the accuracy of the identification, especially
where the level of confidence is inflated by its suggestiveness[,]” Crayton, 21 N.E.3d at
168, confidence can be very persuasive to a jury. In fact, “[s]tudies show that eyewitness
confidence is the single most influential factor in juror determinations regarding the
accuracy of an eyewitness identification.” State v. Lawson, 291 P.3d 673, 705 (Or. 2012).
The impact of confidence on juror evaluation of an identification makes it very hard for
cross-examination to undercut an in-court identification.

And this is particularly

troubling in light of the numerous studies showing that “under most circumstances,
witness confidence or certainty is not a good indicator of identification accuracy.” Id. at
704. It is for these reasons that some state supreme courts are rethinking reliance on
cross -examination as a guard against mistaken eyewitness identification. See Dickson,
141 A.3d at 832 (noting that “cross-examination is unlikely to expose any witness
uncertainty or weakness” in the in-court identification); Commonwealth v. Collins, 21
N.E.3d 528, 536 (Mass. 2014) (“[C]ross-examination cannot always be expected to reveal
an inaccurate in-court identification where most jurors are unaware of the weak
correlation between confidence and accuracy and of witness susceptibility to
manipulation by suggestive procedures or confirming feedback.” (quoting Supreme
Court

Judicial

Court

Study

Group

on

Eyewitness

Evidence:

Report

and

Recommendations to the Justices 20 (July 25, 2013) (internal quotation marks omitted)));
Henderson, 27 A.3d at 918 (concluding that the state’s earlier test for evaluating the
reliability of eyewitness testimony rested too heavily on the assumption “that jurors
would recognize and discount untrustworthy eyewitness testimony”).
5
App. 38

¶77

These characteristics of an in-court identification—its suggestiveness, fallibility,

persuasiveness, and imperviousness to cross-examination—make first-time in-court
identifications exactly the kind of identification procedure that is “conduc[ive] to
irreparable mistaken identification . . . .” Biggers, 409 U.S. at 196. That, of course, is not
the end of the analysis. The question remains: Are first-time in-court identifications
unnecessarily suggestive and are they the product of state action, such that they fall under
the ambit of the Constitution’s protections?

B.
¶78

Perry did not consider, and does not resolve, the question we confront here today.

See Galloway v. State, 122 So. 3d 614, 663 (Miss. 2013) (“The United States Supreme Court
has not decided whether Biggers applies to an in-court identification not preceded by an
impermissibly suggestive pretrial identification.”), cert. denied, 572 U.S. 1134 (2014); see
also Dickson, 141 A.3d at 821 (“The United States Supreme Court has not yet addressed
the question of whether first time in-court identifications are in the category of
unnecessarily suggestive procedures that trigger due process protections.”).

The

majority’s reliance on Perry unmoors that case from its factual setting and ignores the
parallels between an unnecessarily suggestive pretrial identification procedure arranged
by one branch of law enforcement—the police—and an unnecessarily suggestive in-court
identification arranged by another branch of law enforcement—the prosecution.
¶79

In Perry, the Court was confronted with the following question: “Do the due

process safeguards against the State’s use of unreliable eyewitness identification evidence
at trial apply to all identifications which arise from impermissibly suggestive
6
App. 39

circumstances and which are very substantially likely to lead to misidentification, or only
to those identifications which are also the product of ‘improper state action’?” Brief for
Petitioner at i, Perry, 565 U.S. 228 (No. 10-8974). The uniform focus of both the parties’
briefs and the amicus briefs submitted to the Court in Perry was whether state action was
or was not required to call into question the reliability of an eyewitness identification.
See generally Brief for Petitioner, Perry, 565 U.S. 228 (No. 10-8974); Brief for Respondent,
Perry, 565 U.S. 228 (No. 10-8974); Brief for the Am. Psychological Ass’n as Amici Curiae
Supporting Petitioner, Perry, 565 U.S. 228 (No. 10-8974); Brief for the Nat’l Ass’n of
Criminal Def. Lawyers as Amici Curiae Supporting Petitioner, Perry, 565 U.S. 228 (No.
10-8974); Brief for Wilton Dedge et al. as Amici Curiae Supporting Petitioner, Perry,
565 U.S. 228 (No. 10-8974); Brief for the Innocence Network as Amici Curiae Supporting
Petitioner, Perry, 565 U.S. 228 (No. 10-8974); Brief for the Criminal Justice Legal Found. as
Amici Curiae Supporting Respondent, Perry, 565 U.S. 228 (No. 10-8974); Brief for the State
of Louisiana et al. as Amici Curiae Supporting Respondent, Perry, 565 U.S. 228 (No.
10 -8974); Brief for the United States as Amici Curiae Supporting Respondent, Perry, 565
U.S. 228 (No. 10-8974); Brief for the Nat’l Dist. Attorney’s Ass’n as Amici Curiae
Supporting Respondent, Perry, 565 U.S. 228 (No. 10-8974).
¶80

Of course, the context in which that question was being answered was a pretrial

identification that had not been arranged by the police. The opinion, not surprisingly, in
addressing the need for state action to implicate constitutional protections, focused on
the need for police participation in the unnecessarily suggestive identification procedure.
The only context in which Perry focused on in-court identification was when the Court
7
App. 40

rejected Mr. Perry’s argument that any suggestive identification should be subject to
judicial screening. 565 U.S. at 240–44. I agree with the majority that the Supreme Court’s
reasoning in Perry forecloses the conclusion that all in-court identifications should be
screened merely because in-court identification always involves an element of
suggestiveness. But the Court’s reasoning in Perry and in Biggers does not foreclose—
and, I believe, requires—judicial screening of some in-court identifications. See United
States v. Morgan, 248 F. Supp. 3d 208, 213 (D.D.C. 2017) (“Although the Supreme Court
implied in Perry that it did not want all in-court identifications to be subject to judicial
reliability screening, due process concerns require such screening for an initial in-court
identification that is equivalent to a one-man showup.” (internal citation omitted)). In
particular, first-time in-court identifications like the one here are unnecessarily
suggestive, conducive to irreparable misidentification, and arranged by law enforcement.
¶81

First-time in-court identifications are at least as suggestive as the pretrial

identification processes disapproved of by this and other courts. Dickson, 141 A.3d at
822–23 (“[W]e are hard-pressed to imagine how there could be a more suggestive
identification procedure than placing a witness on the stand in open court, confronting
the witness with the person who the state has accused of committing the crime, and then
asking the witness if he can identify the person who committed the crime. If this
procedure is not suggestive, then no procedure is suggestive.”). A first-time in-court
identification is effectively a “show-up”—the witness is confronted with a single
potential suspect and asked if he or she is the right one. But in-court identifications are
in fact more suggestive than show-ups. A show-up might happen quite soon after a
8
App. 41

crime, at a time when the police are still investigating and might not yet have settled on
a suspect. An in-court identification, by contrast, presents a witness with the single
person who the police and the prosecutor believe committed the crime and typically does
so long after the commission of the crime.
¶82

Second, the chances of mistake in a first-time in-court identification are at least as

likely and the consequences of the mistake are the same—a wrongful conviction. See Hill,
967 F.2d at 232 (“The due process concerns are identical in both cases and any attempt to
draw a line based on the time the allegedly suggestive identification technique takes place
seems arbitrary. All of the concerns that underlie the Biggers analysis, including the
degree of suggestiveness, the chance of mistake, and the threat to due process are no less
applicable when the identification takes place for the first time at trial.”).
¶83

And finally, first-time in-court identification, like impermissibly suggestive

pretrial identifications, involves the state action that Perry explained was necessary to
raise due process concerns. In pretrial identifications, the law enforcement arm whose
misconduct might be deterred by the Biggers screening requirement is the police. When
a prosecutor—another arm of law enforcement—is considering asking for a first-time
in-court identification, requiring a judicial screening will deter that prosecutor from
simply gambling that the courtroom setting will produce the desired identification. As
the Connecticut Supreme Court recognized in prohibiting in-court identifications that
were not preceded by an appropriate pretrial identification, “the rationale for the rule
excluding identifications that are the result of unnecessarily suggestive procedures—

9
App. 42

deterrence of improper conduct by a state actor—applies equally to prosecutors.”
Dickson, 141 A.3d at 824.2
¶84

A first-time in-court identification will only occur when a witness has either not

had an opportunity to identify the defendant before trial or, as happened here, has failed
to identify the defendant when given the opportunity. In either case, the prosecution
should be required to explain why it believes the in-court identification will be
sufficiently reliable to avoid the irreparable harm of a mistake caused by the suggestive
setting.

C.
¶85

For these reasons, I believe that a first-time in-court identification requires pretrial

screening applying the factors set forth in Biggers.3 If the trial court had conducted that
screening here, it is unlikely that the three brothers would have been permitted to identify
Mr. Garner for the first time from the witness stand. Biggers requires a court to consider

The rule adopted by both the Connecticut and the Massachusetts courts—that an
in-court identification must be preceded by an appropriate pretrial identification—has
much to recommend it and may one day be recognized as required by due process.
Cognizant of concerns about a state supreme court’s authority to adopt prophylactic rules
under the federal Constitution, I confine myself here to the application of the Supreme
Court’s established test for screening eyewitness identifications procured through
unnecessarily suggestive state action.
2

I agree with the majority that requiring this screening only for in-court identifications
that are preceded by a failure to identify could disincentivize the police to use appropriate
pretrial identification procedures. And I believe that the conduct that application of the
Biggers screen would seek to deter in this context is any use of first-time in-court
identifications. Of course, the brothers’ failure to identify Mr. Garner in a photo line-up
is something the court would consider as part of the screening process.
3

10
App. 43

the opportunity of the witness to view the criminal at the time of the crime,
the witness’ degree of attention, the accuracy of the witness’ prior
description of the criminal, the level of certainty demonstrated by the
witness at the confrontation, and the length of time between the crime and
the confrontation[,]
and to assess the reliability of an identification. 409 U.S. at 199–200. Considering each of
those factors here, the likely reliability of the brothers’ in-court identifications was
extremely low.
¶86

As described by many witnesses in attendance, the shooting occurred in a very

short period of time, during which the three brothers were scared for themselves and for
each other. They had very little time to view who was shooting and each of them testified
that their attention during that time was not on the shooter’s face. Substantial scientific
evidence shows that “eyewitness memory for persons encountered during events that
are . . . highly stressful . . . may be subject to substantial error.” Henderson, 27 A.3d at 904
(quoting Charles A. Morgan III et al., Accuracy of Eyewitness Memory for Persons
Encountered During Exposure to Highly Intense Stress, 27 Int’l J.L. & Psychiatry 265, 274
(2004)); see also Lawson, 291 P.3d at 700–01.

Moreover, as we have previously

acknowledged, “recognition accuracy [is] poorer when the perpetrator [holds] a
weapon.” Bernal v. People, 44 P.3d 184, 190 (Colo. 2002) (quoting Vaughn Tooley et al.,
Facial Recognition: Weapon Effect and Attentional Focus, 17 J. of Applied Soc. Psychology
845, 854 (1987)).
¶87

The passage of time between the crime and the confrontation was significant; the

shooting occurred three full years before the trial. Research demonstrates that “the more

11
App. 44

time that passes, the greater the possibility that a witness’ memory of a perpetrator will
weaken.” Henderson, 27 A.3d at 907.
¶88

The three brothers offered wildly varying descriptions of the shooter over the

course of the investigation. Initially, one described him as a young, bald man with the
word “north” tattooed on his head. Another described him as a Hispanic man with short
black hair. Later, two of the brothers said the shooter had both a mustache and a soul
patch. Each of the brothers also gave differing descriptions of the shooter’s clothes—one
said he wore a bandana, another said jeans and tennis shoes, and the third said a dark
shirt. Of these various items of clothing, the only one that Mr. Garner was wearing that
night was a dark shirt.
¶89

If the court had screened for reliability before trial, the only evidence it would have

had that would go to the brothers’ “level of certainty” would be the fact that none of the
three was able to identify Mr. Garner in a photo array as the person who shot at them
that night, notwithstanding their later courtroom assertions of certainty and that they
would never forget Mr. Garner’s face. In fact, one of the brothers specifically said that
Mr. Garner had been in the bar but that he was not the shooter. The brothers had no
certainty at all before walking into the courtroom about their ability to identify Mr.
Garner as the shooter.4

While the brothers’ testimony from the stand reflected an extremely high level of
certainty, certainty and accuracy do not have a high level of correlation. See, e.g., Neil
Brewer, et al., The Confidence-Accuracy Relationship in Eyewitness Identification, 8 J.
4

12
App. 45

¶90

Given these facts, a pretrial screening for reliability quite likely would have led the

court to conclude that the brothers’ first-time in-court identifications lacked any
likelihood of reliability and prevented a very high risk of the irreparable mistaken
identification that due process protects against. Mr. Garner may or may not have
committed the crime for which he was convicted. The process by which he was convicted
was fundamentally unfair. Our Constitution requires more. I respectfully dissent.
I am authorized to state that JUSTICE HOOD and JUSTICE GABRIEL join in this
dissent.

Experimental Psychol. Applied 44, 44–45 (2002) (“[T]he outcomes of empirical studies,
reviews, and meta-analyses have converged on the conclusion that the
confidence-accuracy relationship for eyewitness identification is weak . . . .”). For that
reason, many states have replaced the “certainty” factor in the Biggers analysis. See, e.g.,
State v. Herrera, 902 A.2d 177, 186 (N.J. 2006); Brodes v. State, 614 S.E.2d 766, 771 (Ga. 2005).
13
App. 46

